at the contract rate after default.
You will also be in default if something happens which the Credit Union believes
may substantially reduce your ability to repay what you owe.
25. ATTORNEYS FEES AND COSTS: If you default on any part of this Agreement,
you agree to pay us all costs to collect your account, including court costs and
reasonable attorneys’ fees whether or not there is a lawsuit, and fees on any appeal
and fees for bankruptcy proceedings, appeals, and any post-judgment collection
services, if applicable.
26. PROMOTIONAL RATES: From time to time, we may offer promotional Periodic
Rates and ANNUAL PERCENTAGE RATES lower than the Periodic Rate and
ANNUAL PERCENTAGE RATES (“Promotional Rates”) stated in this Agreement. The
terms of any promotional rates will be disclosed to you at the time of the promotion
in a separate addendum which will become part of this Agreement. At the end of
the promotional period, the Periodic Rate and ANNUAL PERCENTAGE RATE for
your account will be the same terms as set forth in this Agreement.
27. OTHER FEES AND CHARGES:
(a) Late Payment Charge: If your Minimum Payment is not paid within 15 days
after the Payment Due Date, you will be subject to a $15.00 charge or the
maximum late charge allowed by applicable law.
(b) Returned Check Charge: ­A $25.00 charge will be made when a check
submitted by you for payment on an account is returned to us, regardless of the
reason.
(c) Automatic Payment Reversal Fee: If you have elected to have the payment(s)
on your Account automatically deducted from another Credit Union account and
you fail to maintain sufficient funds in that account causing your payment to be
reversed, your Account will be charged up to $25.
(d) Fee for Documents: If you request a copy of a charge slip or other document
not in connection with a billing error, we may charge your Account the cost of
$25.00 per sale draft plus $6.00 processing fee.
(e) Replacement or Additional Card Fee: If you request an additional card to
replace the card initially issued to you, for any reason other than the card not
being received by you or a defect in its manufacture, or if you request a card for
an additional user on my account, your Account will be charged a fee of $10.
(f) Annual Membership Fee: None
(g) ATM Fees: If you use an ATM to obtain a cash advance and the ATM is not
operated by us, you may be charged an ATM surcharge by the ATM operator
or an ATM network utilized for such a transaction. The ATM surcharge may be
charged to your account if you complete the transaction.
(h) Balance Transfer Fees: You will be charged a fee or either $10,00 or 2% of
the amount of each balance transfer transaction, whichever is greater.
28. TERMINATION: Subject to applicable law, we may terminate or suspend your
credit privileges under this Agreement, at any time, in our sole discretion without
demand or notice. If we are required by law to give you a reason for adverse action
for credit denied, we will do so. You must notify us in writing if you decide to terminate the Agreement. If you terminate this Agreement or if we terminate or suspend
your credit privileges, the provisions of the Agreement and your liability hereunder
shall otherwise remain in full force and effect until all cards or credit instruments or
devices issued to you have been canceled and/or returned to us and you have paid
us all sums due us.
29. NON-REISSUANCE: For security purposes, Provident Credit Union VISA
Cards are reissued every three years. If at the time of reissue your VISA Credit Card
Account has been inactive for at least 12 months, we reserve the right to not reissue
you a new Card and may close your VISA account.
30. TRANSFER OF ACCOUNT: You cannot transfer your account to any other
person.
31. Use of Card and Account by Others: If you so request, we may issue cards
not only to you, but also to others who will only be authorized users of the Account.
Such additional cards may be imprinted either with your name or with the names of
the authorized user(s). You agree that if you permit another person to use your Account (whether or not you have told the Credit Union that such person will be using
your Account), with or without the Card, PIN, that you will pay for any Purchases or
Cash Advances made by such person(s) on your Account and any finance or other
charges imposed on those Purchases and Cash Advances, even if the amount
exceeds your permission. If you have authorized someone to use your Account and
you want to terminate that person’s access, you agree that you must notify us in
writing; if possible, enclosing the Card(s) used by that person, cut in two. Once you

have notified us that this individual is no longer authorized, even if the card is not
recovered, your liability ceases for future charges made to the Account. You may
request us to cancel all cards and establish a new Account for you. If you request
us to terminate the use of your PIN by another person, we will cancel your PIN and
issue a new PIN.
32. ACCELERATION: If you are in default as provided above, or if we in good
faith reasonably believe that the prospect of payment or performance is impaired,
amounts you owe us shall, at our option and without notice, become immediately
due and payable.
33. DELAY IN ENFORCEMENT: We can delay enforcing any right under this
Agreement without losing that right or any other right.
34. AMENDMENT: We reserve the right to amend the terms of this Agreement at
anytime as permitted by and subject to any limitations and notice requirements of
applicable law.
35. SEVERABILITY: If any provision of this Agreement is held invalid all provisions
that are severable from the invalid provision remain in effect.
36. OWNERSHIP OF CARDS: Any Card or other credit instrument or device which
we supply to you is our property and must be returned to us, or any person whom
we authorize to act as our agent, or any person who is authorized to honor the
Card. The Card may be repossessed at any time at our sole discretion without any
demand or notice.
37. PIN SECURITY: You agree not to disclose or otherwise make your Card or
Personal Identification Number (“PIN”) available to anyone without prior written
consent. You agree not to disclose or otherwise make available your PIN to anyone
not authorized to sign on your account. For security reasons, please do not write
your PIN on your Card or keep it in the same location as your Card.
38. CURRENCY CONVERSION/FOREIGN TRANSACTION FEE: Purchases
and cash advances made in foreign currencies will be billed in U.S. dollars. The
conversion rate in U.S. dollars will be either at the government mandated rate or
a wholesale currency market rate determined by VISA® for the processing cycle in
which the transaction is processed. The currency conversion rate used by Visa® on
the processing date may differ from the rate that would have been used on the
purchase date or cardholder statement posting date. The Credit Union has no
control over the conversion rate. The currency conversion rate in effect on the
processing date may differ for the rate in effect on the transaction date or on the
posting date. You will be charged a Foreign Transaction Fee equal to 3% of the
transaction amount in U.S. currency.
39. CREDIT REPORTS: You authorize us to make or have made any credit,
employment and /or investigative inquiry we deem appropriate for the extension of
credit or collection of amounts owing on the account. You authorize us to furnish
information concerning your account to consumer reporting agencies and others
who appear to have a business need for that information. Pursuant to state law, you
are hereby notified that a negative credit report reflecting on your credit record may
be submitted to a credit reporting agency if you fail to fulfill the terms of your credit
obligations.
40. CHANGE OF ADDRESS: You will advise us promptly if you change your mailing
address. All written notices and statements from us to you will be considered given
when placed in the United States mail, postage prepaid, and addressed to you at
your current address as it appears in our records.
Written notices and inquiries from you to us must be sent to:
Provident Credit Union, P.O. Box 8007, Redwood City, CA 94063-0903
41. GOVERNING LAW: This Agreement will not take effect until it is approved by
the Credit Union in the State of California. All payments shall be made to the Credit
Union at the Credit Union’s offices. This Agreement shall be governed by the laws of
the State of California without regard to any conflict of law rules..
42. PHONE CALLS: In the regular course of our business, we may monitor and
record phone conversations made or received by our employees. You agree that we
will have such right with respect to all phone conversations between you and our
employees, whether initiated by you or any of our employees.
YOUR BILLING RIGHTS – KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our responsibilities
under the Fair Credit Reporting Act.
What To Do If You find A Mistake On Your Statement
If you think there is an error on your statement, you should write to us at:

Provident Credit Union P.O. Box 8007, Redwood City, CA 94063-0903
Or you may also contact us on the Web at providentcu.org
In your letter, you will give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want
to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do
we are not required to investigate any potential errors and you may have to pay the
amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain
to you why we believe the bill is correct. While we investigate whether or not there
has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on
that amount.
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of the balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to the amount.
If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement
of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe. If you receive our
explanation but still believe your bill is wrong, you must write to us within 10 days
telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are still questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you have a problem with the quality of property or services that you purchased
with your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on the
property or services.
To use this right, all of the following must be true:
1. You must have made the purchase in your home state or, if not within your
home state, within 100 miles of your current mailing address; and, the purchase
price must have been more than $50.00. (Note: Neither of these are necessary if
your purchase was based on an advertisement we mailed to you, or if we own the
company that sold you the goods or services).
2. You must have used your credit card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your credit card account
do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, you
must contact us in writing at:
Provident Credit Union, P.O. Box 8007, Redwood City, CA 94063-0903
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may report you as delinquent.

VISA® Signature Cash Back Credit Card Agreement
Effective March 1, 2016
1. DEFINITION OF PARTIES: This Signature Cash Rewards VISA® Credit Card
Agreement (“Agreement”) covers your VISA® Credit Card (“Card”) issued through
Provident Credit Union. “Account” means your VISA® Card line of credit account
with Provident Credit union. In this Agreement the words “you,” “your,” and “yours”
include any obligator, joint obligator, guarantor, authorized user, the person whose
name is embossed on the Card, or who sign an application for a Card. The words
“we,” “us,” and “our” mean Provident Credit Union. “Credit Union” means Provident
Credit Union.
2. AGREEMENT ACCEPTANCE: If you sign an application for any account under
this Agreement or sign or use any Card(s) issued or Personal Identification Number
(PIN); or allow others to use the account, Card(s) or PIN, you and they will have
accepted this Agreement just as if you and they signed it, and you and they, jointly
and severally, will be bound by the following terms and conditions.
3. SIGN YOUR CARD: Immediately sign the signature panel on the back of your
Card upon receipt.
4. VISA® CREDIT LINE: Maximum Credit Limit. We will provide you with notice of
your maximum credit limit on your monthly billing statement, and you agree that
we may change your limit at any time. You agree never to use your Card when the
use will exceed your maximum credit limit. You also agree that we are not obligated
to extend to you credit for an amount that would make your outstanding balance
exceed your maximum credit limit, or for any amount if your outstanding balance is
already over the maximum credit limit. Any increases in your maximum credit limit
you request may require that you make a written application for our approval. You
will pay any amounts which exceed your maximum credit limit upon demand. We
may reevaluate your financial condition if you request a higher credit limit, or at any
other time, and this may include obtaining a current credit bureau report or screening, and/or asking you for current financial information. Based on such a review, we
may immediately increase, reduce or even revoke your Account without prior written
notice, as allowable under applicable law.
5. MONTHLY STATEMENT: If you have an outstanding debit or credit New Balance
of $1.00 or more, or if there is any FINANCE CHARGE imposed during a billing
cycle, we will send you a statement. You agree to pay us for all Purchases, Cash
Advances, fees and charges, if any, and FINANCE CHARGES on your Account,
all payable in United States dollars. Payment checks must be drawn on a financial
institution or other entity domiciled in the United States.
Posting of your payment will be delayed if you present us a check drawn on a
non-United States domiciled financial institution or entity. The payment will not
be credited to your Account until the funds have been collected in United States
dollars. You agree to allow the Credit Union to debit your account for any collection
and processing fees associated with handling this payment.
6. USING YOUR CARD: You may use your account for purchases of services and
merchandise from participating merchants that honor your Card. You may also
use your Card to obtain a cash advance from participating financial institutions.
Neither we nor any merchants authorized to honor the Card will be responsible for
the failure or refusal of anyone to honor the Card or any other credit instruments or
devices we supply to you.
7. HOW TO USE THIS ACCOUNT: You can purchase or lease goods and services
(“Purchases”) from a merchant up to your maximum credit limit by presenting your
VISA credit card (“Card”) and signing a sales slip for the amount of the Purchase.
You may also use your card:
A) To obtain cash loans (“Cash Advances”) up to your maximum credit limit 		
from financial institutions that accept a VISA® credit card;
© 3/16 PCU ID 12794

M-117986

B) By making withdrawals with this Card at an automated teller machine;
C) By granting merchants telephonic authorization to charge products or
services to your account;
D) By using your Card to charge phone calls; or,
E) By issuing checks or drafts or the accrual of any charges against your
checking account with Provident Credit Union in excess of its balance (if
overdraft feature is avail-able).Advances made by automatic transfer of 		
funds directly into your pre-designated checking account(s) may be in
multiples of $100.00 or in the amount of the overdraft depending on which
option is available.
F) By making transfers of available funds to another credit union account 		
through the credit union’s Touch Tone Teller or Account Manager systems, or
through direct contact with a credit union representative.
8. ILLEGAL OR UNLAWFUL TRANSACTIONS: You agree that you will not use
the Card or Account for any illegal or unlawful transaction, and we may decline to
authorize any transaction that we believe poses an undue risk of illegality or
unlawfulness. You agree that Provident Credit Union will not have any liability,
responsibility, or culpability whatsoever for any such use by you or any authorized
user(s). You agree that you are responsible for repayment of any and all debts
incurred for these transactions. You further agree to indemnify and hold Provident
Credit Union harmless from any suits, liability, damages, or adverse action of any
kind that results directly or indirectly from such illegal use.
9. SKIP PAYMENT: At our option, we may not require you to make a Minimum
Payment during certain designated billing cycles. If you do not make your Minimum
Payment as provided in the Agreement, you understand we will continue to apply
FINANCE CHARGES to your Account. Beginning with the billing cycle following a
skip payment, you agree that all of the provisions of this Agreement shall apply.
10. FINANCE CHARGES: We will impose FINANCE CHARGES as follows:
Purchases
A) A FINANCE CHARGE is imposed on purchases from the date of posting to
your Account to the date of repayment.
For each billing cycle:
B) We multiply the Monthly Periodic Rate times the Average Daily Balance of
Purchases. The Average Daily Balance is the sum of the daily unpaid balances of
purchases on each day of the billing cycle covered by your current billing statement divided by the number of days in the billing cycle. Such unpaid balances
are determined by deducting payments and credits applied against such unpaid
balances and by adding new purchases, unpaid FINANCE CHARGES, fees and
other charges, in each case, as of the date posted to your Account.
C) We multiply the Monthly Periodic Rate times the Average Daily Balance of
Previous Billing Cycle Purchases. The Average Daily Balance of Previous Billing
Cycle Purchases is the sum of the unpaid balances of purchases itemized
on your last billing statement on each day of the billing cycle covered by your
last billing statement divided by the number of days in the billing cycle. Such
unpaid balances are determined by deducting payments and credits applied
against such unpaid balances and by adding new purchases, unpaid FINANCE
CHARGES, fees and other charges, in each case, as of the date posted to your
Account.
D) We add the amounts determined under (B) and (C) to obtain the FINANCE
CHARGE on purchases.
A FINANCE CHARGE is not imposed on:
E) New purchases posted during a billing cycle if: (a) You paid the New Balance
shown on the billing statement covering the preceding billing cycle by the
Payment Due Date shown on the billing statement or such New Balance was
zero and (b) you pay the New Balance shown on the billing statement itemizing
the new purchases by the Payment Due Date shown on that billing statement.
F) Old purchases previously posted for a billing cycle during which you pay the
New Balance shown on the billing statement covering the preceding billing cycle
by the Payment Due Date shown on that billing statement.
Cash Advances
G) A FINANCE CHARGE is imposed on cash advances as from the date of
transaction to the date of repayment.

For each billing cycle:
H) We multiply the Monthly Periodic Rate times the Average Daily Balance of
Cash Advances. The Average Daily Balance is the sum of the daily unpaid
balances of cash advances on each day of the billing cycle covered by your
current billing statement divided by the number of days in the billing cycle. Such
unpaid balances are determined by deducting payments and credits applied
against such unpaid balances and by adding unpaid FINANCE CHARGES, in
each case, as of the date posted to your Account and by adding new cash
advances as of the date of the transaction.
I) We multiply the Monthly Periodic Rate times the Average Daily Balance of
Previous Billing Cycle Cash Advances. The Average Daily Balance of Previous
Billing Cycle Cash Advances is the sum of the unpaid balances of cash advances
itemized on your last billing statement on each day of the billing cycle covered by
your last billing statement divided by the number of days in the billing cycle. Such
unpaid balances are determined by deducting payments and credits applied
against such unpaid balances and by adding UNPAID FINANCE CHARGES,
in each case, as of the date posted to your Account and by adding new cash
advances as of the date of the transaction.
J) We may also charge a one-time FINANCE CHARGE for cash advances up
to 3% of the amount of each new cash advances, with a minimum FINANCE
CHARGE of $10.00 for advances at financial institutions, casinos, in and out of
network ATMs, wire funds, transfers to non-Provident accounts, overdrafts to
your Credit Union checking account or Western Union transfers.
K) We add the amounts determined under (B),(C) and (D) to obtain the FINANCE
CHARGE on Cash Advances.
L) All forms of cash advances, including the use of overdrafts to your Credit
Union checking account, regardless of the purpose for which used, shall be
subject to the FINANCE CHARGES as set forth above.
Monthly Periodic FINANCE CHARGE, Monthly Periodic Rate, ANNUAL
PERCENTAGE RATE (APR), and PENALTY ANNUAL PERCENTAGE RATE. The
following interest rates apply as of March 11, 2015:
M) Index Initial APR APR Margin
Index (Prime Rate) Periodic Rate
10.99%-18.00% 7.74%-14.75% Per WSJ*
APR is
			
determined 		
		
by Margin + 		
			
Prime Rate^
The Monthly Periodic Rate and corresponding ANNUAL PERCENTAGE RATE
used in calculating the Monthly Periodic FINANCE CHARGE may increase or decrease during the term of this Agreement. Any such change will be based on an
increase or decrease in the “Prime Rate” as published in *The Wall Street Journal. In the event that the Index ceases to be published, changes in your ANNUAL
PERCENTAGE RATE will be related to a comparable Index. We may waive an
increase in your ANNUAL PERCENTAGE RATE when such an increase can be
made, but such waiver shall not be construed as a waiver of our right to increase
the ANNUAL PERCENTAGE RATE at a future date when entitled to do so.
Your ANNUAL PERCENTAGE RATE is subject to change monthly on the first day
of every month following one full billing cycle after an increase or decrease in the
Index. These dates shall be known as “Adjustment Dates.” For example, if the
Index changes anytime in the month of January, your new ANNUAL PERCENTAGE RATE will go into effect on the first day of March and will be based on the
Index as of the last day of January. Decreases in your ANNUAL PERCENTAGE
RATE in accordance with the terms of this Agreement are mandatory. Increases
in your ANNUAL PERCENTAGE RATE can be made at our discretion subject to
the terms of this Agreement. If the ANNUAL PERCENTAGE RATE increases or
decreases, the FINANCE CHARGE will increase or decrease. Each change in
the ANNUAL PERCENTAGE RATE and Monthly Periodic Rate which is the result
of an increase or decrease in the index will apply to any balance outstanding on
the effective date of such change as well as to future Credit Purchases and Cash
Advances.
The initial periodic rate used in calculating your Monthly Periodic FINANCE
CHARGE is set forth in the “Rate and Fee Table” you received under separate
cover and which is made part of this Agreement. The Monthly Periodic FINANCE
CHARGE for each billing cycle will be calculated by multiplying the Average Daily
Balance (described below) of your Account for the billing cycle by the Monthly
Periodic Rate. The Monthly Periodic Rate is determined by dividing the ANNUAL
PERCENTAGE RATE by 12 and will change when the ANNUAL PERCENTAGE

RATE changes. ^We add 7.74% to the Prime rate to determine the current
lowest Daily Periodic Rate used in calculating the FINANCE CHARGE is
0.02120%, which currently corresponds to an ANNUAL PERCENTAGE RATE of
10.99%. We add 14.75% to the Prime to determine the highest Daily Periodic
Rate used in calculating the FINANCE CHARGE is 0.04932%, which
corresponds to an ANNUAL PERCENTAGE RATE of 18.00%.
Penalty Pricing: Interest Rate Adjustment Event. An Interest Rate Adjustment
Event will occur whenever your Account is two Minimum Payments Past Due.
We will change your interest rate to a rate of 18.00% ANNUAL PERCENTAGE
RATE which is a Monthly Periodic Rate of 1.50% on the first day of the billing
cycle following the cycle that was two Minimum Payments Past Due. The
Maximum PENALTY ANNUAL PERCENTAGE RATE is 18.00%. Then after you
make 6 consecutive minimum payments to your account, we will change the
interest rate to your original rate (the ANNUAL PERCENTAGE RATE that was
applicable to your account at the time it was opened and any subsequent
modification to this rate). The Monthly Periodic Rate and ANNUAL PERCENTAGE
RATE change to the original rate will become effective the first day of the billing
cycle following the 6th consecutive billing cycle.
An increase in the ANNUAL PERCENTAGE RATE will have the effect of
decreasing the portion of any payment applied to reduction of the principal
account balance and may, therefore, increase the number of minimum payments
necessary to pay off the Account.
11. CHECKING ACCOUNT OVERDRAFT COVERAGE: Your Card may also
provide Overdraft Coverage on your Provident Credit Union checking account. If you
authorize us to link your Card Account to your checking account for overdraft
coverage and the balance in your checking account is not sufficient to pay the
transaction amount, we may treat the transaction as a request to access your VISA
Credit Line. These transfers will be treated as cash advances. If sufficient credit is
not available on your Card Account to cover the amount of the check or other item,
we will be unable to initiate a cash advance loan advance under this Agreement for
purposes of checking account overdraft coverage.
Limit: Your Checking Account Overdraft Coverage limit will be part of, and not in
addition to, your total approved Credit Line under this Agreement.
12. LIABILITY FOR OVERDRAFTS CAUSED BY ANY CHECKING ACCOUNT
SIGNER: You understand that if advances are made against your Card account
to cover overdrafts to your checking account created by other persons with the
right to access said checking account, you will be fully liable for such advances
nonetheless.
13. PAYMENTS: We will apply your payments first to any billed fees, then to late
charges, then to the FINANCE CHARGE on both purchases and cash advances,
then to the principal balances of purchases in the order they were posted to your
account, and then to the principal balance of cash advances. If two or more
purchases were posted on the same day, your payment will be applied to the
smallest first.
14. PERIODIC STATEMENTS and NOTICES: If, at the end of any monthly periodic
interval which we may determine (the “Billing Cycle”), you have an outstanding
undisputed debit or credit balance in your account, or if there is an Interest Charge
imposed with respect to your account, we will send you a periodic statement for
that Billing Cycle. Statements and Notices will be mailed to you at the most recent
address you have given the Credit Union. Statements and Notices sent to any one
of you will be considered notice to all.
15. ACCOUNT STATEMENT: Unless you notify us of a billing error as described
below, you accept your periodic statements as accurate statements of your
Account with us.
16. USE OF THE ACCOUNT BY OTHERS: If you permit another person to use
your account, you agree to pay for (1) any transactions made by that person and
(2) charges imposed on those transactions, even if the amount of the actual use
exceeds your permission to the extent allowed by applicable law.
17. LIABILITY FOR UNAUTHORIZED USE: You may be liable for the unauthorized
use of your Card. You will not be liable for any unauthorized use that occurs after
you notify the Credit Union orally, of the loss, theft or possible unauthorized use. In
any case, your liability will not exceed $50.00. You may report a lost or stolen Card
by calling 1-(866) 820-4879.
18. LOST AND STOLEN CARDS: If you report your Card lost or stolen as provided
in paragraph 17, then recover or find your Card and fail to notify us immediately of
the recovery at 1-(866) 820-4879, you agree to pay us the amount of any reward

previously paid by us to a retail merchant to recover the Card you reported as lost
or stolen.
19. OTHER PROVISIONS: Each of you who signed the Application and/or
requested the Account or use the Account is individually and jointly obligated for all
payments due under this Agreement. The Account has been applied for,
considered, approved and issued in the State of California and all extensions of
credit are being made from the State of California. You agree that this Agreement
shall be governed by and interpreted under California and Federal Law. If any part of
this Agreement is not valid, all other parts will remain enforceable.
20. YOU PROMISE TO PAY: You promise to pay us in United States dollars, by
cash, check or money order as provided by this Agreement, all such amounts, plus
FINANCE CHARGES, which arise from such use of the Card or Account by you or
any other person, and to be jointly and severally liable with such a person, unless
such other person does not have actual, implied, or apparent authority for such use,
and you received no benefit for the use. Your obligation to pay the amount owed
on your Account continues until paid in full even though an agreement, divorce
decree or other court judgment to which the Credit Union is not a party may direct
someone else to pay the Account balance.
21. MINIMUM PAYMENT REQUIRED: Minimum Monthly Payment. We will mail
you a statement every month if your account has a balance. You agree that you
will pay each month not less than the minimum monthly payment on or before
the scheduled monthly due date. The minimum monthly payment will be 2.5% of
your outstanding balance (“New Balance”) or $25.00, whichever is greater. If your
outstanding balance is $25.00 or less, you agree to pay the balance in full. You
may pay in full for all your purchases and cash advances each month, or you may
repay in monthly installments. We can accept late payments or partial payments, or
checks, drafts, or money orders marked “payment in full” without prejudice to our
rights under this Agreement, which are hereby explicitly reserved. A credit posting
from a merchant or reversal of fees do not constitute a minimum payment. Subject
to applicable law, the minimum monthly payment may be allocated at the Credit
Union’s discretion to pay off lower rate balances, such as promotional offers, before
higher rate balances, such as cash advances or purchases. Payments in excess
of the minimum monthly payment will be allocated to higher rate balances, as
applicable.
22. AUTOMATIC PAYMENT OPTION: If you have requested this optional service,
you will automatically transfer the amount of the payment requested from your
designated Credit Union account. The payment option can be designated by you as
one of the following: (1) Full Payment; (2) Minimum Periodic Payment; or, (3) a
specified dollar amount. If the amount you have designated for payment is greater
than the amount of available funds being on deposit on the day of the transfer
the transfer has been made, the transfer will be reversed. If you make additional
payments during the billing cycle, the automatic transfer may still take place on the
statement closing date. We may cancel this service if the transfers are not honored
because of insufficient and/or unavailable funds in your deposit account and we will
notify you of this action. You may cancel this service at any time, however you
understand that one more transfer(s) may occur if you do not provide sufficient
notice for the Credit Union to input the change.
23. IRREGULAR PAYMENTS: We can accept late payments or partial payments, or
checks and money orders marked “payment in full” without prejudice to our rights
under this Agreement, which are hereby explicitly reserved.
24. DEFAULT: Events of Default. You will be in default under the Account and
Agreement if any of the following events shall occur. (a) If YOU fail to comply with
the minimum payment or any other terms or conditions of this Agreement or on any
other obligation YOU have or will have with you; (b) if YOU try to exceed your credit
limit without our permission; (c) if YOU have made any false or misleading statements on any credit application submitted to us; (d) if YOU should die or become
insolvent; (e) if a petition should be filed or other proceedings should be started under the Federal Bankruptcy Code, by any authorized signer on the Account, whether or not you have been listed as a creditor; (f) if a Receiver should be appointed or
a writ or order of attachment, levy or garnishment should be issued against you or
any of your property, assets or income; or, (g) if you should consider that any debts
due under this Agreement unsafe or not completely secure or if you should believe,
in good faith, that the chances of your paying or performing all of your obligations
under this Agreement have been impaired.
If default occurs under this Agreement, we may, at our option, without notice to you,
terminate this Agreement, revoke your right to use the Card, and demand that you
will pay us immediately all sums which you owe us. Interest will continue to accrue

